             U.S. SMALL BUSINESS ADMINISTRATION
                         OFFICE OF INSPECTOR GENERAL
                              Washington, DC 20416




                                                             Audit Report
                                                     Issue Date: September 19, 2006
                                                        REPORT NUMBER: 6-29




TO:            Herbert L. Mitchell, Associate Administrator
               Office of Disaster Assistance

               /s/ Original Signed
FROM:          Debra Ritt
               Assistant Inspector General for Auditing

SUBJECT:       Audit of Loan Disbursements Following the 2005 Gulf Coast Hurricanes
               Katrina, Rita, and Wilma

       Attached is a copy of the subject audit report. The report contains two findings and
no recommendations addressed to your office.

       Because the report contains no recommendations, procedures that require review and
implementation of corrective action by your office in accordance with the existing Agency
procedures for audit follow-up do not apply.

       Any questions or discussion of the findings contained in the report should be directed
to Stephen Seifert, Director, Credit Programs Group, at (703) 487-[EXP 2].




Attachment

cc:    Administrator/ Small Business Administration
                                             AUDIT OF

                            DISASTER LOAN DISBURSEMENTS

                 FOLLOWING THE 2005 GULF COAST HURRICANES

                                KATRINA, RITA, AND WILMA

                                       Report Number: 6-29

                                      SEPTEMBER 19, 2006




The findings in this report are the conclusion of the Office of Inspector General’s Auditing Division
based on testing of SBA operations. The findings are subject to review, management decision, and
corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                                       EXECUTIVE SUMMARY

       In 2005, Gulf Coast Hurricanes Katrina, Rita and Wilma caused more than
$118 billion in estimated property damage. As the federal government’s primary lender to
non-agricultural victims of disasters, the Small Business Administration (SBA) approved
more than 148,700 disaster loans totaling $9.7 billion to individuals and businesses that
suffered losses from the Gulf Coast hurricanes. 1 However, as of May 27, 2006, SBA had
only disbursed $1.4 billion, or 14 percent of the loans approved. Because rebuilding efforts
had progressed slowly, questions arose about whether SBA’s disbursement process was too
slow. At the start of our audit, SBA workload statistics showed that 68,233 loans had been
approved but not closed; 8,336 loans had been closed but not disbursed; and 36,180 loans
had been partially or fully disbursed.

         To determine the reasons for the relatively low disbursement rate for approved Gulf
Coast disaster loans, we reviewed 220 approved loans totaling $16.1 million that were in
various stages of closing and disbursement. 2 Since most of the loans in our sample were
approved at the beginning of calendar year 2006, 125 loans were still in the closing process
at the time of our audit. The remaining 95 loans had completed the closing process, which
took an average of 24 days from loan approval. Only 12 of the 95 loans had been fully
disbursed, with the full disbursement occurring within an average of 37 days from the date of
closing.

       A review of loan processing data in SBA’s Disaster Credit Management System
(DCMS) and interviews with borrowers for the 220 loans further disclosed that no problems
were encountered with 81, or 37 percent of the loans. Of the remaining 139 loans, 136 (62
percent of the loans reviewed) experienced the following processing issues that were
primarily attributed to the borrower, which increased the time it took to disburse approved
loans:

    •    Difficulties in filing loan closing documents. We identified 49 loans that were
         impacted by the untimely or incomplete filing of loan documents; 35 of which were
         attributable to the borrower. SBA requires borrowers to complete a series of loan
         closing documents before a loan can be finalized and an initial disbursement made.
         For disbursements exceeding $10,000 on physical disaster loans and $5,000 on
         economic injury disaster loans, applicants may also be required to provide collateral. 3
         The timing of subsequent disbursements generally is based on the borrower’s needs.
         Of the 49 loans, 30 involved documents needed to close the loan and 19 related to
         documents needed for subsequent disbursements. Borrowers were late in filing
         documents either because they were unsure whether they wanted the loans, did not
         understand the document requirements, or had trouble reaching an SBA
         representative for assistance..


1
  Loan volumes and value reflect loans approved as of May 27, 2006.
2
  125 loans had not been closed; 45 loans were closed but not disbursed; and 50 loans had been either partially
  or fully disbursed.
3
  Many loans, especially loans to renters, are unsecured.
   •   Indecision or reluctance of borrowers to assume the loans. Borrowers on 47 loans
       did not want their loans primarily because they had other means of funding, did not
       believe they could afford the loans, or were planning to relocate. All but two of these
       borrowers had not yet closed on their loans, and only a few had notified SBA of their
       intent to cancel their loans. Additionally, another five borrowers who had closed on
       their loans had requested modifications to cancel their loans.

   •   Loan modifications to change the terms and conditions of the loan or to update
       borrower information. Loan modifications had been requested on 40 loans; 27 of
       these requests changed the terms and conditions of the loan or payment dates, and 13
       involved updating borrower information. While the filing of loan closing documents
       and borrower acceptance of the disaster loans were outside of SBA’s control, SBA
       officials acknowledged they had not placed a high enough priority on processing loan
       modifications. As of June 12, 2006, 44,033 loan modifications were in loan
       processing, of which 32,321, or 73 percent, had not been assigned to loan officers.
       To address these issues SBA officials stated they had realigned work assignments to
       dedicate staff to the processing of modifications and to expedite the processing of
       those associated with simple administrative changes to loan agreements.

       Because loan processing times were largely borrower driven, we are not making any
recommendations. However, we recently initiated an audit of SBA’s loan modification
process associated with borrower relocations, and may be recommending improvements to
more expeditiously process these actions.
                                               TABLE OF CONTENTS



INTRODUCTION

   Background ................................................................................................................... 1

   Audit Objectives, Scope and Methodology .........................................................……. 3

RESULTS OF AUDIT

   The Majority of Approved Loans Had Not Been Closed                                    ……………………..…….4

   The Rate of Loan Disbursement Is Mostly Borrower Driven.............................……...5

Appendices

   Appendix A: Borrower Comments on Sampled Loans………………….......………10
                                    INTRODUCTION

Background

        In 2005 Hurricanes Katrina, Rita and Wilma caused more than $118 billion in
estimated property damage in the U.S. Gulf Coast region, making it the most costly
disaster in recent U.S. history. As the federal government’s primary lender to non-
agricultural disaster victims, SBA provides financial assistance through its Disaster Loan
Program to help homeowners, renters, businesses of all sizes, and non-profit
organizations recover from disasters.

        Nine months following Hurricane Katrina, SBA approved more than 148,700
disaster loans totaling $9.7 billion to individuals and businesses that suffered losses from
the Gulf Coast hurricanes. However, as of May 27, 2006, SBA had only disbursed
$1.4 billion or 14 percent of the loans approved.

        Under the Small Business Act, SBA is authorized to make two types of direct
loans to victims of natural and man-made disasters to assist with long-term recovery
needs:

       •   physical disaster loans to homeowners, renters, businesses, and nonprofit
           organizations, which fund permanent rebuilding and replacement of uninsured
           real and personal property; and

       •   Economic injury disaster loans, which provide necessary working capital to
           small businesses until normal operations can be resumed after a disaster.

        Before SBA can disburse funds, disaster loan applications must undergo six
stages of processing, depending on whether the loan has to be secured. Physical disaster
loans over $10,000 and economic injury loans over $5,000 must be secured with
collateral to the best extent possible. Applicants can get an initial disbursement of funds
after executing the Note and Loan Authorization and Agreement; with subsequent
disbursements after all of the required loan documents have been filed. Borrowers with
loans secured by collateral located in a Special Flood Hazard Area must show evidence
of flood insurance coverage prior to SBA making a disbursement. Generally, secured
loans are disbursed in stages that correspond with the borrowers’ needs and how they
have spent prior disbursements. SBA cannot disburse more than $25,000 until the
borrower has accounted for how he/she spent 80 percent of the funds previously
disbursed and provided a written contract to repair or replace the damaged property. On
March 6, 2006, SBA implemented a pilot program allowing for the disbursement of
$50,000 in two payments once collateral requirements are met.

       The 6 stages of the loan application process include:

       •   Pre-screening of applications for completeness. During the pre-screening
           or application entry phase, SBA screens applications for completeness and


                                             1
           determines whether the applicant meets minimum income requirements or
           demonstrates repayment ability based on information contained in the
           applications.
       •   Pre-Processing Decisions (PPD) - After pre-screening, SBA generates a
           credit report and applicants with scores below 540 are automatically declined
           due to unsatisfactory credit. Additionally, the DCMS system reviews the
           minimum income requirements and the ability to repay using the debt
           information contained in the credit bureau report.

       •   Loss verification. After the pre-PPD process, applications move to the loss
           verification phase, where loss verifiers conduct on-site damage inspections for
           physical disaster loan applicants to estimate the cost of restoring damaged
           property to pre-disaster condition. The verified loss becomes the basis for the
           loan amount. Economic injury loan applications move directly to the
           application processing stage after the pre-processing decision.

       •   Application processing. At this stage, loan officers check for duplication of
           benefits, assess the applicant’s ability to obtain credit elsewhere to establish
           the interest rate to be applied to the loan, and evaluate other eligibility criteria.
           Loan officers also perform a financial analysis to determine the applicant’s
           ability to repay the loan and decide to either approve or decline the loan.
           After loan approval, SBA prepares a loan authorization and agreement, and
           for unsecured loans, provides borrowers the loan documents they will need to
           submit to complete the closing process. Secured loans must also undergo a
           legal review.

       •   Legal review. All secured loans are reviewed for legal sufficiency of
           collateral instruments and other issues. Legal staff members also create a loan
           closing checklist of the legal documents needed to generate loan closing and
           send the documents to the applicant for execution. SBA may also send loan
           closing package to an SBA Disaster Office in the impacted area where loan
           closings can be performed one-on-one with the borrower.

       •   Closing and disbursement. After the borrower has returned the executed
           Note and Loan Authorization and Agreement, SBA can make an initial
           disbursement of up to $5,000 for economic injury loans and $10,000 for
           secured physical disaster loans. Unsecured loans may be fully disbursed. To
           obtain additional disbursements beyond these levels, borrowers must submit
           collateral documents and other documents, such as the deed of trust or
           recorded mortgage on the damaged property, security agreements, building
           permits, and applications for liens.

       SBA’s Office of Disaster Assistance is responsible for processing all disaster
loans. Loans are processed by the Disaster program using SBA’s Disaster Credit
Management System (DCMS), which supports Office of Disaster Assistance loan
processing activities, including the disaster management, loss verification, legal review,


                                              2
document management, and portfolio maintenance tasks. DCMS also provides real-time
access to information and paperless processing of disaster loan applications.

Audit Objectives, Scope and Methodology

        Our audit objectives were to determine the reasons for the low rate of disaster
loan disbursements and to identify impediments in the loan closing and disbursement
processes which affected SBA’s ability to provide timely assistance to disaster victims.

        To address the audit objectives, we selected three samples comprising 220
approved loans that were in various stages of loan closing and disbursement at the
beginning of April 2006. As shown in Table 1 below, the three samples were drawn from
(1) loans approved but not closed, (2) loans closed but not disbursed, and (3) loans closed
and partially 4 or fully disbursed.

                                                   Table 1
                                        Loan Sample Sizes and Values
                                               ($ in millions)

                                                                                Value of        Value of
                                                Loan
                                                                 Universe        loans            loan
          Process Description                sample Size
                                                                   size         sampled         universe
    Approved, not closed                                  125      68,233           $9.3            $4,800
    Closed, not disbursed                                 45          8,336          $3.7              $614
    Closed and partially/ fully
                                                           50       36,180           $2.8            $2,326
    disbursed
    Total                                                 220      112,749          $15.8           $7,740
Source: SBA’s Disaster Credit Management System and Loan Accounting System

        To determine the reasons for the low rate of loan disbursements, we reviewed
information in DCMS and the Loan Accounting System (LAS) for each approved loan
and interviewed borrowers associated with loans that experienced problems with the
filing of loan documents, where borrower indecision or reluctance to accept the loan was
encountered, or that involved loan modifications. We also interviewed SBA personnel
from the Disaster Loan Processing and Disbursement Center in Fort Worth, Texas to
discuss impediments in SBA’s loan closing and disbursement process. While multiple
reasons were cited for the low rate of disbursement, we focused our analysis on the
predominant factors impacting loan disbursement.

       Using DCMS and LAS data, we also determined average processing times for the
sampled loans and collected information on the number of loan modifications that had
been assigned to loan officers. Our audit was conducted between March and June 2006


3
 An initial (partial) disbursement is automatically scheduled after the loan is closed if requested by the
borrower; unsecured loans can be fully disbursed.


                                                      3
in accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.




                                         4
                                    RESULTS OF AUDIT

The Majority of Approved Loans Had Not Been Closed

        Because the majority of SBA Gulf Coast disaster loans were approved during the
first few months of calendar year 2006, most loans were still in the closing process at the
time of our audit. As of April 6, 2006, 68,233 approved loans were in the closing process
and 44,516 had been closed. Of the closed loans, 36,180 had been partially or fully
disbursed.

        In our sample of 220 loans, 95 had been closed, of which 12 had been fully
disbursed. We examined the average number of days it took borrowers to return
documents and for SBA to close the 95 loans, and evaluated the average time it took SBA
to fully disburse the 12 loans after closing. SBA’s disaster lending procedures generally
require applicants to close loans within 60 days of the date on the loan authorization and
agreement (loan approval).

        As shown in Table 2, SBA received signed closing documents from borrowers
about 23 days, on average, after making the approval. Further the closed loans we
examined completed the closing process within an average of 23 days from loan
approval, while full disbursement took an average of 37 days from the time of closing.
SBA did not establish processing goals for the full disbursement of loans because the
timing of these disbursements is determined by the borrower. In fiscal year 2006 SBA
established an initial disbursement goal of 5 days from receipt of necessary closing
documents for 95 percent of all loans. SBA’s disaster lending procedures require
borrowers to arrange for and obtain all loan funds within 12 months from the date of the
loan agreement, unless approval of an extension is granted.

                                              Table 2
                           Days in Process for 95 Closed Loans Sampled

                                                Number of        Average     Days allowed to
            Process Description                  loans in        days in      return closing
                                                  sample         Process        documents
Average time to receive closing
documents from borrowers                            95              23             60
Average time to close approved loans
                                                    95              23            N/A
Average time from closing to full
disbursement
                                                    12*             37            N/A
*Only 12 of the 95 loans had been fully disbursed.
Source: SBA’s Disaster Credit Management System and Loan Accounting System

        The remaining 125 loans in our sample were still in the closing process at the time
of our audit. These loans had been in process an average of 51 days and were still
awaiting documentation from the borrowers to close the loans. Because the 125 loans


                                                5
were still in process, it is possible that borrowers will not send in their closing documents
within the 60-day period established by SBA. Further, loan closings may be delayed due
to the extraordinary circumstances created by the Gulf Coast hurricanes, where a
significant number of individuals were displaced and/or documents needed to establish
property ownership, proof of insurance, etc, were lost or destroyed in the disaster.
SBA does have processes and procedures in place that allow for the extension of the 60-
day deadline to return executed loan closing documents.

The Rate of Loan Disbursement is Mostly Borrower Driven

        A review of loan closing and disbursement data in DCMS for the 220 loans
further disclosed that no problems were encountered relative to 81, or 37 percent of the
loans. Of the 139 remaining loans, 136, or 62 percent, were affected by borrower actions,
including:

       − Borrower delays in filing loan closing documents and difficulties in getting
         SBA assistance during the closing process;

       − Borrower indecision or reluctance to assume the loans; and

       − Borrower requests to modify the loan terms and conditions or to update
         borrower information.

Disbursements were Impacted by Borrower Delays in Filing Loan Documents

        SBA’s disaster lending procedures require borrowers to arrange for and obtain
loan funds within 12 months from the date of the loan agreement. Before initial
disbursements are made, borrowers must execute a series of loan closing documents, such
as a signed loan authorization and agreement and a promissory note. Additional
documentation is required before subsequent disbursements can be made for physical
disaster loans exceeding $10,000 and economic injury disaster loans exceeding $5,000.
Unsecured loans can be fully disbursed upon receipt of the executed Note and Loan
Authorization and Agreement.

        Borrowers provided incomplete information, did not provide all of the documents,
or did not get the assistance from SBA needed to obtain initial or full disbursements for
49, or 22 percent, of the 220 loans reviewed. Of the 49 loans, 30 involved documents
needed to close the loan and process the initial disbursement, and 19 related to documents
needed for subsequent disbursements. These documents included proof of hazard or
flood insurance, and other documents specified in the loan agreements.




                                              6
      As shown in Table 3, most of the reasons cited for incomplete or missing loan
documents were attributed to the borrowers.

                                      Table 3
                 Reasons for Incomplete or Missing Loan Documents

                            Reasons                                     Number of Loans
 Borrower had not submitted documents                                         35
 SBA had not provided borrower with all closing documents                     11
 SBA provided conflicting guidance on closing documents                        3
 Total                                                                        49
Source: Borrower comments and SBA’s Disaster Credit Management System

        One of the more common reasons cited by borrowers for not filing the necessary
documentation for their loans was that they were unsure whether they wanted a loan or,
in cases where initial disbursements had occurred, whether they wanted additional funds
beyond the initial disbursement amount. Borrowers also commented they did not fully
understand the documentation requirements and had trouble getting assistance from SBA.

       According to SBA officials, during previous disasters, borrowers had more
opportunities to meet with SBA loan officers at the disaster recovery centers. Due to the
size and magnitude of the 2005 Gulf Coast disasters, however, many borrowers were
displaced and unable to meet with SBA disaster representatives for assistance completing
the documentation or to close their loans. Accordingly, the only opportunity to receive
SBA assistance was to call an 800 number established by SBA for disaster victims.
According to some of the borrowers we spoke with, they had a difficult time getting
through to a representative on the 800 number.

        Borrower delays in filing their documents were also attributable to the time
involved in obtaining, replacing or completing the additional documents needed after
closing, such as flood insurance, building permits, security agreements and title searches,
which must be obtained from third parties. The timing of disbursements was also based
on the borrower’s need for the loan proceeds. Some borrowers indicated they delayed
disbursements because they had not obtained building permits or secured a contractor to
perform the needed repairs on their property.

Borrowers Were Either Undecided or Did Not Want the Loans

        The borrowers of 47, or 21 percent, of the 220 loans reviewed were either
undecided or did not want the loans. All but two of these borrowers had not yet closed
on their loans. Although a few borrowers in our sample had notified SBA of their desire
to cancel or modify their loans, most had not. Consequently, the majority of these loans
were reflected in SBA’s records as approved but not disbursed.




                                              7
        As shown in Table 4, some of the more common reasons cited for borrower
reluctance to accept loans were that they did not believe they could afford the loan, had
other means of funding their needs, were considering relocating, or believed the loan no
longer met their needs.

                                               Table 4
                     Reasons Cited for Borrower Reluctance to Accept Loans

                            Reasons                                                     Number Of Borrowers
    Had other means of funding                                                                   8
    Believed they could not afford the loans                                                     6
    Considering relocating                                                                      6
    Loans no longer met their needs                                                              5
    Did not want to provide collateral                                                           4
    Unsure about loan amount                                                                     3
    Wanted a grant instead of a loan 5                                                           2
    Thought interest rates were too high                                                        1
    No reason cited                                                                             12
     Total 6                                                                                    47
Source: Borrower comments

        In addition to the 47 borrowers who did not want their loans, another five
borrowers who had already closed on their loans requested to have them cancelled. To
cancel a loan, a borrower must notify SBA of their intent to cancel the loan thereby
requiring a loan modification action which, as discussed later in this report, was taking
several months to process at the time of our audit.

Loan Modification Requests Increased the Processing Time

       To change the loan terms and conditions or to update borrower data once a loan
has been approved, borrowers must request a loan modification. Loan modification
requests are generally categorized into three levels, depending on the type of change
required or requested by the borrower:

          − Level 1. Basic account information changes that do not impact the character
            or parameters of the loan (e.g., borrower address and name corrections)

          − Level 2. Changes that impact the character of the loan, but do not require an
            in-depth review of financial or other factors to determine outcome (e.g.,
            extension of disbursement period)

          − Level 3. More complex changes that involve reviewing several factors and
            conditions of the loan (e.g., loan increase or collateral change)
4
  With few exceptions, such as income level, FEMA homeowner and renter grant applicants must first be denied an SBA loan to be
  eligible for a grant.
5
  The total does not reflect the five borrowers who cancelled their loans after closing and requested loan modifications.



                                                               8
    Of the 220 loans sampled, 40, or 18 percent, involved loan modifications. As shown
in Table 5 below, the 40 loan modifications were primarily associated with changes in
loan amounts or Level 3 actions.

                                         Table 5
                              Types of Loan Modifications

              Reason for loan modification                         Number of loans
 Level 1
  Updating contact information                                            8
  Canceling loan                                                          5
 Sub total                                                                13
 Level 2
  Revising payment dates                                                   1
 Level 3
  Changing loan amount                                                    17
  Relocating                                                              7
  Changing collateral                                                      1
  Changing use of loan proceeds                                            1
 Sub total                                                                26
 Total                                                                    40
                 Source: SBA’s Disaster Credit Management System

        According to SBA officials, requests for loan modifications delayed disbursement
of the loan proceeds because SBA resources were primarily focused on approving the
high volume of applications being received at the Disaster Processing and Disbursement
Center. SBA officials told us that due to the high volume of loan applications, loan
officers were processing all new loan requests ahead of modifications, even those that
simply required the updating of borrower contact information.

        Thus, the 40 loan modification requests in our sample were either awaiting
assignment to a loan officer or had been assigned and not fully evaluated and processed.
Furthermore, basic account information changes or Level 1 modifications were subjected
to the same process as material changes or level 3 modifications, even though they did
not impact the terms and conditions of the loans. Table 6 below shows that 15 of the 40
loan modification requests in our sample were 60 days or older as of the date of our audit.




                                              9
                                     Table 6
            Number of Days that Modification Requests Were in Process
                            at the Time of Our Audit

                                              Number of days in process
    Modification level           59 or less         60 to 99          100 or more
            1                        9                 3                   1
            2                        -                 1                   -
            3                       16                 6                   4
           Total                    25                10                    5
Source: SBA’s Disaster Credit Management System

       SBA officials told us that since our audit they had realigned work assignments to
expedite loan modifications and the processing of administrative changes, or Level 1
modifications. Specifically, 300 loan officers were devoted to processing loan
modifications, with an average workload of 25 loan modifications each. Additionally,
personnel resources from the Customer Service Center were made available to process
loan modification actions. While this will address current delays, in the future, SBA will
need to determine a way to better balance processing requirements for loan approvals and
requests for loan modifications.

                                       * * * * *
        Because loan processing times were within expected ranges and were largely
borrower driven, we are not making any recommendations. However, we recently
initiated an audit of SBA’s loan modification process associated with borrower
relocations, and may be recommending improvements needed to more expeditiously
process these actions.

SBA Management’s Response

       SBA concurred with the substance of the draft report and provided a few technical
and factual changes, which were incorporated into the final report, where appropriate.




                                              10
                                     APPENDIX A
               BORROWER COMMENTS ON SAMPLED LOANS
        The comments presented in this appendix were obtained through telephone
interviews with borrowers who were approved for Gulf Coast Hurricanes disaster loans.
The purpose was to obtain the borrowers’ position on loan processing impediments. The
borrowers were also asked to comment on the effectiveness of SBA’s loan closing and
disbursement process. Attempts were made to contact borrowers for all loans with
identifiable impediments and a random selection of borrowers whose loans were
processed without identifiable impediments. The interviews were conducted between
April and August 2006 by the Los Angeles and Dallas Field Offices. The following
legend explains codes used in the appendix to indicate the loan processing stage:

       Appendix Legend

A - Approved but Not Closed

B – Closed but Not Disbursed

C - Closed and Partially Disbursed

D- Closed and Fully Disbursed




                                         11
                                                                                                      Loan
       Loan
No.                                      Borrower's Comments                                        Processing
      Number
                                                                                                      Stage

                 Borrower has all closing documents, but is waiting until she gets a building
 1    [EXP. 2]   permit before returning the documents. She is also concerned about                     A
                 whether she will have to elevate her property.

                 Borrower said that her experience with SBA was fine, but was concerned
                 because SBA told her that a conditional commitment letter was sent out
 2    [EXP. 2]                                                                                          A
                 with only the street address. The letter did not include the city, the state, or
                 the zip code. She had not received the letter.

                 Borrower believes SBA should have followed up with a telephone call to
 3    [EXP. 2]   explain the loan closing documents and loan closing process. Otherwise,                A
                 he said his experience with SBA had been good.

 4    [EXP. 2]   Borrower has not received closing documents or been contacted by SBA.                  A

                 Borrower has not heard from SBA or received the closing documents since
 5    [EXP. 2]                                                                                          A
                 the loan was approved.

                 The borrower believes that the delay in closing was caused by SBA taking
                 too long to schedule the closing at the Disaster Recovery Center. The
 6    [EXP. 2]                                                                                          A
                 borrower said he was told not have to return the required mortgage papers
                 because he could bring them to the closing.
                 Borrower said the loan closing documents have not been issued and
 7    [EXP. 2]   believes SBA is waiting for something from IRS, but did not remember                   A
                 what.

                 Borrower stated that all documents were received, but when she went to the
                 Disaster Recovery Center to sign them, she was told that the loan could not
                 use to replace her car, so she refused to sign the loan closing documents at
                 that time. She has since received additional documents but they do not
 8    [EXP. 2]                                                                                          A
                 state whether she can use the loan proceeds to replace the damaged car.
                 She says that SBA did not clearly explain what is needed to replace her car,
                 despite speaking to several SBA employees including a supervisor.
                 Consequently, she has decided not to deal with SBA.

                 According to the borrower, SBA informed him that everything was
                 complete and that the closing documents would be sent to the Disaster
 9    [EXP. 2]                                                                                          A
                 Recovery Center. He was told that SBA would contact him to schedule a
                 closing date, but no one from the SBA has contacted him yet.

                 The borrower has not returned the closing documents for his business loan
10    [EXP. 2]
                 because he wants to close his home and business loans at the same time.                A
                 He is waiting for documents needed for the home loan.

11    [EXP. 2]   We were unable to contact the borrower during the audit.                               A




                                                 12
                                                                                                 Loan
       Loan
No.                                     Borrower's Comments                                    Processing
      Number
                                                                                                 Stage
12    [EXP. 2]   We were unable to contact the borrower during the audit.                          A
13    [EXP. 2]   We were unable to contact the borrower during the audit.                          A
                 Borrower completed and returned closing documents to SBA and recently
14    [EXP. 2]   received an additional request for Deed of Trust and a completed title            A
                 search.
15    [EXP. 2]   Borrower has not received renter's insurance.                                     A

                 Borrower lost the first set of documents and is waiting for SBA to send out
16    [EXP. 2]                                                                                     A
                 another set of documents. He has not received the documents yet.
                 Borrower stated that she has not received closing documents, but has done
17    [EXP. 2]                                                                                     A
                 all that is needed to receive the loan.
                 Borrower stated she forgot to fill out the Electronic Funds Transfer form
18    [EXP. 2]                                                                                     A
                 and SBA had to send the document back for signature.
                 Borrower is waiting for the building permit and flood insurance to complete
19    [EXP. 2]                                                                                     A
                 the closing process.

                 Borrower was told that SBA needs a copy of the deed showing that the
      [EXP. 2]
20               property is paid off. He recently picked up the loan closing documents            A
                 from the Disaster Recovery Center because SBA had an incorrect address.

21    [EXP. 2]   We were unable to contact the borrower during the audit.                          A
                 Borrower can not afford to rebuild because the city and FEMA want her to
22    [EXP. 2]   elevate the house 18 feet. She doesn't know what she is going to do on            A
                 relocating.
                 Borrower does not want the home loan at this time and is waiting for flood
      [EXP. 2]
23               insurance payment and a more secure financial future before committing to         A
                 two SBA loans.

      [EXP. 2]   Borrower may not need the loan. She received $150,000 in flood insurance
24                                                                                                 A
                 proceeds and may get more from a supplemental insurance request.

                 Borrower does not want the loan because the levees are being raised to the
      [EXP. 2]
25               original level. She went through Hurricane Betsy and does not want to go          A
                 through another one. She is now renting one hour north of New Orleans.

                 Borrower recently faxed title and mortgage information on the new
      [EXP. 2]
26               property, but does not want to sign anything until she knows what SBA is          A
                 going to require for her to draw down the loan funds.

                 Borrower sent in another letter explaining that they need more time to make
      [EXP. 2]
27               their relocation decision. The borrower still does not know how many feet         A
                 to elevate their home, but said the mayor will be making a decision soon.




                                                13
                                                                                                  Loan
       Loan
No.                                      Borrower's Comments                                    Processing
      Number
                                                                                                  Stage
                 Borrower is not sure about the loan at this time. She really does not know
                 how a lien placed on her house from a $334,000 hospital bill will affect the
28    [EXP. 2]                                                                                      A
                 SBA loan. She says that she has sent all the bills to her health insurance
                 company and expects them to be paid.
                 Borrower may have to talk to an attorney. He wants grant money, but may
29    [EXP. 2]                                                                                      A
                 have to take a loan.
30    [EXP. 2]   Borrower decided not to take out the loan.                                         A

                 Borrower decided not to go through with the loan. Her husband died
31    [EXP. 2]   recently and she plans to retire in the next few years. She said she already       A
                 has enough debt.

                 Borrowers do not want the loan because they do not want to make the
32    [EXP. 2]                                                                                      A
                 changes required to get flood insurance.
33    [EXP. 2]
                 Borrower canceled the loan.                                                        A
      [EXP. 2]   We were unable to communicate with the borrower who did not speak
34                                                                                                  A
                 English.
                 Borrower said that the loan did not met his needs because he did not
35    [EXP. 2]                                                                                      A
                 receive the requested amount from SBA.
36    [EXP. 2]   Borrowers are debating on what relocation options and if they will stay.           A

                 Borrower is required to obtain additional insurance which may be too
37    [EXP. 2]   costly and is also waiting for building code requirements from the city and        A
                 insurance proceeds to determine their level of loan need.

38    [EXP. 2]   Borrower stated that the insurance proceeds satisfied their needs.                 A
39    [EXP. 2]   Borrower stated that the insurance proceeds satisfied their needs.                 A
                 Borrower did not want to put their home up for collateral and the loan
40    [EXP. 2]                                                                                      A
                 payments were too steep.
41    [EXP. 2]   Borrowers are debating on whether to reinvest in the area or to relocate.          A
                 Borrowers are considering whether or not to accept the loan and are not
42    [EXP. 2]                                                                                      A
                 sure about the details of the loan.

                 Borrower stated that the loan was too restrictive and they did not want to
43    [EXP. 2]                                                                                      A
                 put their home up for collateral.
                 Borrower said loan was too restrictive and they did not want to put their
44    [EXP. 2]   home up for collateral. They were also not sure about the details of the           A
                 loan.
45    [EXP. 2]   The borrower stated that insurance proceeds satisfied their needs.                 A
                 The borrower stated that they are still awaiting insurance proceeds to
46    [EXP. 2]                                                                                      A
                 determine the level of loan needs.




                                                 14
                                                                                                  Loan
       Loan
No.                                      Borrower's Comments                                    Processing
      Number
                                                                                                  Stage

                 Borrow wants to relocate but SBA would only provide funds to replace
47    [EXP. 2]   personnel property. He has not followed up with SBA because SBA will               A
                 not provide funds for the purposes he wants.

                 Borrow said all loan closing documents have been signed but they have
48    [EXP. 2]   asked that SBA not disburse the funds until they can return to the area and        A
                 begin rebuilding.
                 Borrower does not want a loan. She wants grant money to repair the
                 damage to her home. She said that when she shared this with SBA, she was
49    [EXP. 2]                                                                                      A
                 told that she did not need to return the documents and the loan would
                 cancel.

      [EXP. 2]   Borrower was relocated by his employer to Texas and obtained outside
50                                                                                                  A
                 financing. He no longer wants the loan but has not cancelled it.

      [EXP. 2]   Borrower does not want the loan because he is 74 years old and may not be
51                                                                                                  A
                 able to pay it off before his death.

      [EXP. 2]   Borrower decided to use his own funds to repair his residence and no
52                                                                                                  A
                 longer wanted the SBA loan. He has not cancelled the loan request.

      [EXP. 2]   Borrower is not sure whether she will accept the loan and did not want to
53                                                                                                  A
                 discuss the reasons.

54    [EXP. 2]   We were unable to contact the borrower during the audit.                           A

                 Borrower’s insurance company wrote a joint payee check to her and to her
                 mortgage company, which the mortgage used to reduce the mortgage.
                 According to the borrower, SBA reduced the amount of the loan by the
55    [EXP. 2]                                                                                      A
                 amount of the mortgage pay down, even though it was an involuntary pay
                 down, which would have prevented the SBA from reducing the amount of
                 the SBA loan.

                 Borrower was uncertain whether he was going to use SBA funds or his own
56    [EXP. 2]                                                                                      A
                 to repair his home in New Orleans.
                 Borrower is a teacher and lost her job after the hurricane and does not want
57    [EXP. 2]                                                                                      A
                 to take on liability without having a stable job.
58    [EXP. 2]   Borrower is undecided as to whether he wants the loan.                             A
59    [EXP. 2]   Borrower decided not to take the loan.                                             A
                 Borrower no longer wants the loan because it is not enough to help him
60    [EXP. 2]                                                                                      A
                 recover.
      [EXP. 2]
61               Borrower did not like the interest rate on the disaster loan.                      A

                 Borrower wants to relocate but only qualified for a $2,500 loan because he
62               only had a trailer and SBA will not give him a loan to increase his standard       A
      [EXP. 2]
                 of living. Therefore, he decided to get a loan from the bank.



                                                 15
                                                                                                   Loan
       Loan
No.                                      Borrower's Comments                                     Processing
      Number
                                                                                                   Stage
63    [EXP. 2]   We were unable to contact the borrower during the audit.                            A
      [EXP. 2]
64               Borrower did not want to put their home up for collateral.                          A

65    [EXP. 2]   We were unable to contact the borrower during the audit.                            A

                 Borrower is unsure whether to accept the SBA loan because SBA has not
      [EXP. 2]   been clear about whether insurance checks used for mortgage pay downs
66                                                                                                   A
                 will reduce the amount of the SBA loans. Also, the borrower said there is
                 uncertainty about how high structures have to be rebuilt.

67    [EXP. 2]   Borrower wants to wait until after hurricane season.                                A
      [EXP. 2]
68               Borrower believes SBA loss verification was too low.                                A

                 After numerous attempts to change the collateral requirements, borrower
                 has not received a revised Loan Authorization and Agreement, Note, or a
69    [EXP. 2]                                                                                       A
                 phone call on the issue. She does not understand why she can’t use the
                 loan proceeds as she likes.

                 Borrower is grateful with SBA's action. The borrower's relocation request
70               was to move farther inland and purchase a mobile home. New furniture                A
      [EXP. 2]
                 and appliances would also be purchased.

      [EXP. 2]   Borrower is frustrated. He relocated to Florida through his own financing
71                                                                                                   A
                 because his modification request is still pending.
                 Borrower is frustrated. His mobile home was completely destroyed in a
                 flood area and he wants to purchase a new mobile home and relocate to a
72    [EXP. 2]   non-flood area. The borrower knew he was going to the bottom of the dog             A
                 pile when he was told that his relocation request would require additional
                 processing.
                 Borrower said that she requested to relocate closer to her family at the loan
73               closing. She was very grateful because in the process of getting this loan          A
      [EXP. 2]
                 approved, the IRS released a lien that had been placed on her residence.

74    [EXP. 2]   We were unable to contact the borrower during the audit.                            A
75    [EXP. 2]   Borrower relocated and would like SBA to fund the relocation.                       A
                 Borrower needs to obtain a couple more items and increase their flood
76    [EXP. 2]                                                                                       A
                 insurance before closing the loan.

                 Borrowers’ home in Chalmette, Louisiana was completely destroyed and
                 they were evacuated to Mississippi and then Florida, where her husband
      [EXP. 2]
77               had open heart surgery. Now that she has reached retirement age and due             A
                 to her husband's recent open heart surgery, they believe that it is no longer
                 feasible to go back to Louisiana.

78    [EXP. 2]   Borrower received the entire loan amount on April 7, 2006.                          A




                                                 16
                                                                                               Loan
       Loan
No.                                     Borrower's Comments                                  Processing
      Number
                                                                                               Stage

                 The borrower stated that SBA did not explain the closing documents, but
79    [EXP. 2]   directed her to call SBA in the 800 number to schedule an appointment for       A
                 closing.
      [EXP. 2]
80               Borrower’s overall experience with SBA was good.                                A

                 The borrower said that SBA has been very helpful and the process has
81    [EXP. 2]                                                                                   A
                 worked well.
      [EXP. 2]
82               The borrower stated that the process has been good so far.                      A
      [EXP. 2]   We were unable to communicate with the borrower because he does not
83                                                                                               A
                 speak English.

      [EXP. 2]   Borrower requested a collateral substitution and is waiting for the loan
84                                                                                               A
                 closing documents from SBA.

      [EXP. 2]   Borrower requested a collateral substitution and is waiting for the loan
85                                                                                               A
                 closing documents from SBA.

86    [EXP. 2]   We were unable to contact the borrower during the audit.                        A

                 Borrower was pleased with SBA's prompt response and excellent customer
87    [EXP. 2]                                                                                   A
                 service. He wants to apply for a business loan as well.

                 We were unable to communicate with the borrower because he does not
88    [EXP. 2]                                                                                   A
                 speak English.
      [EXP. 2]   The borrower stated that SBA clearly explained what documents were
89                                                                                               A
                 needed to close his loan.
90    [EXP. 2]   The borrower stated that he has questions regarding flood insurance.            A
91    [EXP. 2]   We were unable to contact the borrower during the audit.                        A

                 Borrower found SBA employees very helpful and friendly and was very
92    [EXP. 2]   pleased with her experience. Due to the lien requirements, the borrower         A
                 decided not to take additional disbursements beyond the initial $10,000.

      [EXP. 2]   Borrower had no problems working with SBA. SBA provided full and
93                                                                                               A
                 clear explanations for what was needed to complete the loan.

94    [EXP. 2]   We were unable to contact the borrower during the audit.                        A

      [EXP. 2]   The borrower stated that SBA clearly explained what documents were
95                                                                                               A
                 needed to close his loan.

96    [EXP. 2]   We were unable to contact the borrower during the audit.                        A
97    [EXP. 2]   We were unable to contact the borrower during the audit.                        A

                 Borrower was approved for both a personal and a business disaster loan.
98    [EXP. 2]                                                                                   A
                 The borrower is very grateful for the loans.




                                                 17
                                                                                                 Loan
       Loan
No.                                     Borrower's Comments                                    Processing
      Number
                                                                                                 Stage
                 Borrower recently submitted closing documents after a slight delay because
99               they had to file IRS tax returns for the two previous years prior. They had       A
      [EXP. 2]   not complaints about the loan process.
      [EXP. 2]
100              Borrower had no complaints about the disaster loan process.                       A

                 Borrower has not returned the loan closing documents because she had
                 been too busy to fill them out. She stated that although the loan approval
101   [EXP. 2]                                                                                     A
                 process took a long time, the loan was processed satisfactorily after she
                 submitted the missing IRS tax returns.

      [EXP. 2]   Borrower was very thankful for the loan and did not have any complaints
102                                                                                                A
                 about the disaster loan process.

                 Borrower was satisfied to receive the loan funds during the previous week
103              and considering that over 1/2 million people were drastically affected, SBA       A
      [EXP. 2]
                 has done a good job.
      [EXP. 2]
104              We were unable to contact the borrower during the audit.                          A


      [EXP. 2]   Borrower’s only complaint was that he had to initiate all phone calls
105                                                                                                A
                 because SBA did not make any follow up calls to him.

      [EXP. 2]   Borrower had no complaints because living in New Orleans, they know
106                                                                                                A
                 how bad the situation is.

                 Borrower had no complaints and stated that based on the seriousness of the
107              situation, timing was adequate and it was clear to them that now they had a       A
      [EXP. 2]
                 chance to rebuild.
108   [EXP. 2]   Borrower said the loan process was a good experience.                             A
                 Borrower had a very positive experience with SBA. She completed the
109              closing documents at the SBA office and will send in permit and flood             A
      [EXP. 2]
                 insurance information as soon as possible.

      [EXP. 2]   Borrower had no problems with the loan closing process. The borrower got
110                                                                                                A
                 the documents and returned them in a timely manner.
      [EXP. 2]
111              We were unable to contact the borrower during the audit.                          A

                 The borrower stated that she did not know what the next step was once she
                 received the closing documents. She thought she would receive a call. The
112   [EXP. 2]                                                                                     A
                 borrower further stated she called SBA and was told to complete the
                 documents and mail them in.
113   [EXP. 2]   Borrower got the help needed form SBA.                                            A
114   [EXP. 2]   We were unable to contact the borrower during the audit.                          A




                                                18
                                                                                                   Loan
       Loan
No.                                      Borrower's Comments                                     Processing
      Number
                                                                                                   Stage

                 Borrower said SBA clearly explained what documents were needed to close
115   [EXP. 2]                                                                                       A
                 his loan.
      [EXP. 2]   We were unable to contact the borrower during the audit.
116                                                                                                  A
      [EXP. 2]   Borrower stated that SBA carefully explained how to complete the closing
117                                                                                                  A
                 documents.
118   [EXP. 2]   We were unable to contact the borrower during the audit.                            A
                 Borrower had no trouble closing the loan. The only exception was that he
119              had to order pre-printed checks for his electronic funds transfer, although         A
      [EXP. 2]
                 he was temporary checks would be okay.

      [EXP. 2]   The borrower stated he completed the loan closing documents at Boca
120                                                                                                  A
                 Raton Disaster Recovery Center.

121   [EXP. 2]   We were unable to contact the borrower during the audit.                            A
122   [EXP. 2]   We were unable to contact the borrower during the audit.                            A
123   [EXP. 2]   We were unable to contact the borrower during the audit.                            A

                 The borrower stated that SBA clearly explained what documents were
124   [EXP. 2]                                                                                       A
                 needed to close his loan.
      [EXP. 2]   The borrower said he is thankful for the loan, but due to the language
125                                                                                                  A
                 barrier he does not understand the process or the terms of the loan.

      [EXP. 2]   Borrower expected to be declined for a loan to be eligible for a FEMA
126                                                                                                  B
                 grant. Instead, she was approved for the SBA loan.

      [EXP. 2]   Borrower is waiting on knee surgery and is still looking for a place to live.
127                                                                                                  B
                 He plans to wait until hurricane season passes before completing the loan.

128   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
129   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
130   [EXP. 2]   We were unable to contact the borrower during the audit.                            B

                 Borrowers requested relocation in June and are waiting on SBA to approve
131   [EXP. 2]   the relocation modification. The loan officer told them that it would take          B
                 60 to 90 days after they found the new house to get the loan proceeds.

132   [EXP. 2]   Borrower is trying to locate the pre-nuptial to remove his wife's name.             B
                 Borrower stated she canceled the loan because she was not comfortable
133   [EXP. 2]   with the loan terms and the Government holding a second lien on their               B
                 house.
      [EXP. 2]
134              Borrower can not afford insurance and wants more time to work it out.               B

135   [EXP. 2]   We were unable to contact the borrower during the audit.                            B




                                                 19
                                                                                                   Loan
       Loan
No.                                      Borrower's Comments                                     Processing
      Number
                                                                                                   Stage

                 Borrower said SBA will not let him use the proceeds the way he wants so
136   [EXP. 2]                                                                                       B
                 he canceled the loan.

                 Borrower said SBA personnel were helpful, just a lot of paperwork.
137   [EXP. 2]                                                                                       B
                 Borrower had difficulty dealing with people outside of SBA.
138   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
                 Borrower believes process thus far was not worth it. After receiving the
                 initial $10,000, it’s been one hoop after another trying to get the second
139   [EXP. 2]                                                                                       B
                 disbursement. Borrower is currently in the loan modification process and
                 getting frustrated.
140   [EXP. 2]   Borrower was happy with the loan and had no problems with SBA.                      B
      [EXP. 2]   Borrower will provide the necessary documents to SBA in order to receive
141                                                                                                  B
                 a subsequent disbursement.
142   [EXP. 2]   Borrower had no problem with SBA.                                                   B
                 Borrower said the loan saved her life and that SBA personnel were
143   [EXP. 2]   wonderful…everyone was wonderful. You don’t know how much it                        B
                 helped.
144   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
145   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
146   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
      [EXP. 2]   We were unable to contact the borrower during the audit.
147                                                                                                  B

148   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
149   [EXP. 2]   We were unable to contact the borrower during the audit.                            B
                 Borrower said process was fast and efficient. The SBA representative was
150   [EXP. 2]                                                                                       B
                 helpful and answered all my questions.
151   [EXP. 2]   We were unable to contact the borrower during the audit.                            B

                 Borrower said the process went well. SBA personnel are professional and
152   [EXP. 2]                                                                                       B
                 pretty good.

                 Borrower said the process to find the right person to assist was frustrating.
153   [EXP. 2]   He finally contacted someone at SBA who did a lot to make the                       B
                 disbursement process easy.

                 Borrower was not satisfied with the process and spoke with multiple people
                 who gave different answers to her questions. Currently, the loan is in loss
154   [EXP. 2]                                                                                       B
                 verification for the third time. Borrower secured a private loan which she
                 hopes to pay off with the SBA loan.
                 Borrower claimed that information SBA submitted to the title insurance
155   [EXP. 2]                                                                                       B
                 company was insufficient. He is working with SBA to resolve this matter.
156   [EXP. 2]   We were unable to contact the borrower during the audit.                            B



                                                 20
                                                                                                  Loan
       Loan
No.                                     Borrower's Comments                                     Processing
      Number
                                                                                                  Stage
                 Borrower’s request to refinance an existing mortgage with the SBA loan is
157   [EXP. 2]                                                                                      B
                 delaying the process. She is currently working with an SBA loan officer.
                 Borrower had no problem with the original person she dealt with at the
                 Disaster Recovery Center, but encountered problems when dealing with
158   [EXP. 2]   another employee who offered her $4,000. Borrower wants $49,900 and                B
                 has submitted the required documents. She is not pleased with the way
                 SBA has handled her.

      [EXP. 2]   Borrower cancelled the loan because he was unsatisfied with the conditions
159                                                                                                 B
                 that put a lien on his house.

                 Borrower is uncertain whether she wants loan proceeds due to the buyout
160   [EXP. 2]   program being developed by both the City of New Orleans and the State of           B
                 Louisiana.

                 Borrower said the loan modification sate idle for 4 to 5 months. SBA
161              representative was wonderful, explained everything, and was very                   B
      [EXP. 2]   professional. Borrower just received loan cancellation notice.

                 Borrower canceled the loan because SBA would not let her use the money
162              the way she wanted. She added that she only has 5 years on her current             B
      [EXP. 2]
                 mortgage, so why get another loan.

163   [EXP. 2]   Borrower said SBA was great and personnel were very nice.                          B
164   [EXP. 2]   We were unable to contact the borrower during the audit.                           B
165   [EXP. 2]   We were unable to contact the borrower during the audit.                           B
166   [EXP. 2]   We were unable to contact the borrower during the audit.                           B

      [EXP. 2]   Borrower is waiting on the approved loan modification for relocation. She
167                                                                                                 B
                 sent SBA all the required documents, including the seller’s agreement.

                 Borrower accidentally signed the loan cancellation paperwork and the
                 problem was fixed in a couple of days. She called SBA on several
168   [EXP. 2]                                                                                      B
                 occasions to check the status and was told that her loan file was overlooked
                 and had not been worked.
169   [EXP. 2]   We were unable to contact the borrower during the audit.                           B
170   [EXP. 2]   We were unable to contact the borrower during the audit.                           B
171   [EXP. 2]   We were unable to contact the borrower during the audit.                           C
172   [EXP. 2]   Borrower had no complaints with the process.                                       C
173   [EXP. 2]   We were unable to contact the borrower during the audit.                           C

174   [EXP. 2]   We were unable to contact the borrower during the audit.                           C
      [EXP. 2]
175              We were unable to contact the borrower during the audit.                           C

176   [EXP. 2]   Borrower stated that many of documents had been submitted.                         C



                                                21
                                                                                              Loan
       Loan
No.                                     Borrower's Comments                                 Processing
      Number
                                                                                              Stage


177   [EXP. 2]   We were unable to contact the borrower during the audit.                       C
                 Borrowers are experiencing delays with the loan closer in Beaumont,
179   [EXP. 2]   Texas. They provided the deed but needed other closing documents               C
                 notarized.
                 Borrowers are having problems obtaining the deed and were unsure if they
180   [EXP. 2]                                                                                  C
                 needed the remaining funds.
      [EXP. 2]
181              Borrower did not want to put his house up as collateral.                       C
      [EXP. 2]
182              We were unable to contact the borrower during the audit.                       C
      [EXP. 2]   Borrower is pleased with the status of the loan and believes final
183                                                                                             C
                 disbursement will occur soon.
      [EXP. 2]   Borrower was assigned a representative at the Disaster Center and will
184                                                                                             C
                 provide the required documents for future disbursements.
      [EXP. 2]   The borrower stated he will provide documents after he purchases his
185                                                                                             C
                 house.

      [EXP. 2]   Borrower received his initial disbursement and stated that he wants to
186                                                                                             C
                 continue receiving subsequent disbursements.
      [EXP. 2]
187              We were unable to contact the borrower during the audit.                       C

188   [EXP. 2]   We were unable to contact the borrower during the audit.                       C
189   [EXP. 2]   We were unable to contact the borrower during the audit.                       C
190   [EXP. 2]   We were unable to contact the borrower during the audit.                       C

                 Borrower returned a $30,000 disbursement payment to SBA by certified
191   [EXP. 2]                                                                                  C
                 check. SBA signed the check but it has not reached Fort Worth, Texas.
192   [EXP. 2]   We were unable to contact the borrower during the audit.                       C
                 Borrower felt the process was terrible. Received first disbursement of
193              $10,000, but then SBA needed hazard insurance. Borrower said he spoke          C
      [EXP. 2]
                 with not less than 10 different people.

                 Borrower was very pleased with the service provided by two members of
                 the SBA Legal Department. He has provided all of the required documents
194   [EXP. 2]                                                                                  C
                 to the Legal Department and, to his understanding, will receive $93,400
                 once SBA’s Escrow Department clears the loan.

                 Borrower said SBA personnel were great and very professional. He
195              believes process requires too much paperwork and that it is unfair to          C
      [EXP. 2]
                 require borrowers to collateralize personal property.

196   [EXP. 2]   We were unable to contact the borrower during the audit.                       C




                                                 22
                                                                                               Loan
       Loan
No.                                     Borrower's Comments                                  Processing
      Number
                                                                                               Stage
197   [EXP. 2]   Borrower said the process and SBA personnel were fine.                          C

                 Borrower received the initial $10,000 and wants the loan closed. Borrower
198   [EXP. 2]                                                                                   C
                 appreciates the loan.
      [EXP. 2]   Borrower wants increase the loan amount to $25,000.
200                                                                                              C
                 Borrower has an appointment to provide the required documents to the
201   [EXP. 2]   SBA Loan Closer at the Disaster Recovery Center located in Gretna,              C
                 Louisiana.
                 Borrower said the SBA initially entered someone else’s IRS information in
202   [EXP. 2]   her file. Once this problem was fixed she did not hear from SBA for a           C
                 while.
      [EXP. 2]   Borrower wants to decrease in the loan amount was because they had not
203                                                                                              C
                 completed their house. If they need money later, they will contact SBA.
204   [EXP. 2]   We were unable to contact the borrower during the audit.                        C
      [EXP. 2]   Borrower said everything was fine in the beginning but it bogged down at
205                                                                                              C
                 the end of the process. SBA personnel were very nice.
206   [EXP. 2]   Borrower was satisfied with the process and had no problems.                    C
      [EXP. 2]   Borrower stated he was preparing the receipts for $8,000 of the $10,000
207                                                                                              C
                 initial disbursement so that he can apply for the rest of his money.
                 Borrower is not sure if she will submit the necessary documentation for a
208   [EXP. 2]   subsequent disbursement. She did not want a lien on her house and is            C
                 satisfied with the repairs completed with the initial disbursement.
209   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
210   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
      [EXP. 2]   The borrower felt he was not treated fairly and had to resend everything
211                                                                                              D
                 several times.
      [EXP. 2]   Borrower said everything was great and that they received their
212                                                                                              D
                 disbursement in an expeditious manner.
      [EXP. 2]   Borrower was very satisfied with the process and said that SBA personnel
213                                                                                              D
                 were very helpful. He was very appreciative.
214   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
215   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
216   [EXP. 2]   Borrower said SBA personnel were great, but the process was a bit slow.         D
217   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
218   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
219   [EXP. 2]   We were unable to contact the borrower during the audit.                        D
220   [EXP. 2]   The borrower said SBA personnel did a good job.                                 D




                                                23
